<html>
<title> - AN OVERVIEW OF THE NATIONAL SCIENCE FOUNDATION BUDGET FOR FISCAL YEAR 2014</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]







                          AN OVERVIEW OF THE 
                      NATIONAL SCIENCE FOUNDATION
                      BUDGET FOR FISCAL YEAR 2014

=======================================================================

                                HEARING

                               BEFORE THE

                        SUBCOMMITTEE ON RESEARCH

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                       WEDNESDAY, APRIL 17, 2013

                               __________

                           Serial No. 113-20

                               __________

 Printed for the use of the Committee on Science, Space, and Technology





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





       Available via the World Wide Web: http://science.house.gov

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

80-559 PDF                WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
DANA ROHRABACHER, California         EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas                 ZOE LOFGREN, California
F. JAMES SENSENBRENNER, JR.,         DANIEL LIPINSKI, Illinois
    Wisconsin                        DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             FREDERICA S. WILSON, Florida
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
PAUL C. BROUN, Georgia               DAN MAFFEI, New York
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   JOSEPH KENNEDY III, Massachusetts
RANDY HULTGREN, Illinois             SCOTT PETERS, California
LARRY BUCSHON, Indiana               DEREK KILMER, Washington
STEVE STOCKMAN, Texas                AMI BERA, California
BILL POSEY, Florida                  ELIZABETH ESTY, Connecticut
CYNTHIA LUMMIS, Wyoming              MARC VEASEY, Texas
DAVID SCHWEIKERT, Arizona            JULIA BROWNLEY, California
THOMAS MASSIE, Kentucky              MARK TAKANO, California
KEVIN CRAMER, North Dakota           ROBIN KELLY, Illinois
JIM BRIDENSTINE, Oklahoma
RANDY WEBER, Texas
CHRIS STEWART, Utah
VACANCY
                                 ------                                

                        Subcommittee on Research

                   HON. LARRY BUCSHON, Indiana, Chair
STEVEN M. PALAZZO, Mississippi       DANIEL LIPINSKI, Illinois
MO BROOKS, Alabama                   ZOE LOFGREN, California
STEVE STOCKMAN, Texas                AMI BERA, California
CYNTHIA LUMMIS, Wyoming              ELIZABETH ESTY, Connecticut
JIM BRIDENSTINE, Oklahoma            EDDIE BERNICE JOHNSON, Texas
LAMAR S. SMITH, Texas














                            C O N T E N T S

                       Wednesday, April 17, 2013

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Larry Bucshon, Chairman, Subcommittee 
  on Research, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................     6
    Written Statement............................................     7

Statement by Representative Daniel Lipinski, Ranking Minority 
  Member, Subcommittee on Research, Committee on Science, Space, 
  and Technology, U.S. House of Representatives..................     8
    Written Statement............................................    10

Statement by Representative Lamar Smith, Chairman, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    11
    Written Statement............................................    12

                               Witnesses:

The Honorable Cora Marrett, Acting Director, National Science 
  Foundation
    Oral Statement...............................................    13
    Written Statement............................................    15

The Honorable Dan Arvizu, Chairman, National Science Board
    Oral Statement...............................................    24
    Written Statement............................................    26

Discussion.......................................................    36

             Appendix I: Answers to Post-Hearing Questions

The Honorable Cora Marrett, Acting Director, National Science 
  Foundation.....................................................    52

The Honorable Dan Arvizu, Chairman, National Science Board.......    62

            Appendix II: Additional Material for the Record

National Science Foundation......................................    68

 
                  AN OVERVIEW OF THE NATIONAL SCIENCE
                 FOUNDATION BUDGET FOR FISCAL YEAR 2014

                              ----------                              


                       WEDNESDAY, APRIL 17, 2013

                  House of Representatives,
                                   Subcommittee on Research
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 2:25 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Larry 
Bucshon [Chairman of the Subcommittee] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Bucshon. Good afternoon. Welcome to today's 
hearing entitled, ``An Overview of the National Science 
Foundation Budget for Fiscal Year 2014.'' In front of you are 
packets containing the written testimony, biographies, and 
truth in testimony disclosures for today's witnesses.
    I now recognize myself for five minutes for an opening 
statement.
    Thank you to everyone here today for this Research 
Subcommittee hearing. I am pleased to welcome Acting Director, 
Dr. Marrett, and President Arvizu to discuss NSF's priorities 
for Fiscal Year 2014. Thank you both for coming.
    Before we begin today's hearing, I would like to make a few 
comments about the recent budget proposed by the President for 
2014. Today our national debt stands at almost $17 trillion, 
and 62 cents of every dollar is spent on our mandatory spending 
or entitlement programs, and everyone pretty much agrees that 
these are the largest drivers of our debt. Since 2008, 
approximately 19 cents of every dollar has been spent on 
Medicare and Medicaid, and four years later we are currently 
spending 23 cents of every dollar on these programs. Without 
reform this trend will continue.
    Before my time in Congress, as a cardio thoracic surgeon in 
Evansville, Indiana, I saw firsthand how these spiraling costs 
were crowding out funding for other federally-funded programs 
like scientific research and development.
    Instead of, in my view, showing leadership, the President 
has spent his time in office defending a healthcare law that 
makes matters even worse. The Administration has not offered a 
pathway forward on our mandatory spending programs other than 
continually cutting the funding for provider reimbursement to 
hospitals and practitioners, risking access to quality 
healthcare for our Nation's seniors.
    At this point I don't see any evidence the Affordable Care 
Act will lower medical costs in the future. Instead it 
continues to irresponsibly add to our yearly deficit and total 
national debt in spite of the rhetoric to the contrary.
    Unfortunately, the proposed Fiscal Year budget from the 
Administration has a lot of accounting gimmicks. Because of the 
Administration's failed leadership and failed economic 
policies, we are left with non-targeted cuts in sequestration 
and ongoing record deficits and debt. Washington's inability to 
address these fiscal issues is hampering the ability of our 
economy to recover from recession.
    Hardworking Americans who stand to benefit from the 
research and technology our country develops may be the 
victims. House Republicans have tried to address these issues 
by passing responsible budgets for the last three years, 
however, we have not--we don't control Washington, D.C. The 
other budgets offered from our friends on the other side have 
included higher taxes, more spending, and more importantly for 
this discussion, don't begin to address the significant drivers 
of our debt, and that is our mandatory programs. In addition, 
the budgets that have been proposed never balance.
    I stress in my view if we do not address our mandatory 
spending programs, funding for all other Federal programs will 
continue to feel the financial pinch.
    Imagine the high-paying jobs that will result when today's 
basic science discoveries turn into tomorrow's marketable 
technologies. Tomorrow's prosperity depends on what we do here 
today.
    And back to our present situation and the current year 
budget for the National Science Foundation. We must now focus 
on answering what is the appropriate role of the Federal 
Government in funding science research. I believe by asking 
this and related questions we can create a stronger, more 
efficient National Science Foundation--nimble enough to tackle 
the numerous scientific challenges of tomorrow. As a Nation we 
must focus our scientific priorities and stretch every dollar 
for maximum benefit in these tight financial times.
    As an example, do we need to fund studies such as the 
International Criminal Court in Pursuit of Justice, $260,000 
funded through NSF? I think that is a good discussion to have. 
These can be luxury things to fund. It would be nice to fund if 
we have the money, but it is not something in my view that we 
need to fund. This type of research may be more appropriately 
funded through the private sector or other government agencies.
    Our charge is to ensure the American taxpayer is getting 
value for their hard-earned dollars that we spend on research 
through NSF. I strongly support NSF funding in mathematics, 
physics, chemistry, biology, engineering, cyber security, and 
STEM education, among others. Although the scientific community 
is not facing ideal fiscal environments, I still believe that 
America's best and brightest scientists will continue to 
persevere and produce the innovations and discoveries of 
tomorrow. We should support the hardworking scientist who stays 
up all night to repeat their experiments and doggedly pursues 
their ideas because they believe they are onto the next great 
discovery and may answer the next big question in their chosen 
field.
    I recently visited several universities and colleges in 
Indiana, including Purdue University and Indiana University, 
and talked to NSF-funded researchers, and I was impressed. I 
still have a great faith and optimism in the scientific 
community and that its strength will continue and improve.
    But for American science to succeed we must be sure that 
the NSF remains focused on its scientific goals and missions. I 
look forward to the thoughtful discussion that will ensue.
    At this point I would also like to thank Ranking Member 
Lipinski and everyone participating in today's hearing.
    [The prepared statement of Mr. Bucshon follows:]

 Prepared Statement of Subcommittee on Research Chairman Larry Bucshon

    Good afternoon and thank you to everyone here for today's Research 
subcommittee hearing. I am pleased to welcome Acting Director Dr. 
Marrett and President Dr. Arvizu to discuss NSF's priorities for fiscal 
year 2014. Thank you both for coming.
    Before we begin today's hearing, I would like to make a few 
comments about the President's proposed FY 2014 budget. Today, our 
national debt stands at almost $17 trillion dollars. 62 cents of every 
dollar is spent on our entitlement programs and everyone agrees these 
are the largest drivers of our debt. Before President Obama took 
office, approximately 19 cents of every dollar was spent on Medicare 
and Medicaid. Four years later, this has risen to 23 cents of every 
dollar. Without reform this trend will continue.
    Before my time in Congress, as a cardio thoracic surgeon in 
Evansville, Indiana, I saw first-hand how these spiraling costs were 
crowding out funding for other federally funded programs, like 
scientific research and development.
    Instead of showing leadership, the President has spent his time in 
office defending a health care law which makes matters worse. The 
Administration has offered no path forward on Medicare and Medicaid 
other than cutting funding for provider reimbursement, risking access 
to quality healthcare for our nation's senior citizens.
    I don't see any evidence that Obama-care will lower medical costs 
in the future; instead it irresponsibly adds to our yearly deficit and 
total national debt in spite of the misguided rhetoric to the contrary 
from the Administration.
    Unfortunately, the President's proposed Fiscal Year 2014 budget 
boils down to accounting gimmicks. Because of this administration's 
failed leadership and failed economic policies, we are left with the 
non-targeted cuts in sequestration and ongoing record deficits and 
debt. Washington's inability to address these fiscal issues is 
hampering the ability of our economy to recover from the recession.
    Hardworking Americans who stand to benefit from the research and 
technology our country develops will be the victims. House Republicans 
have tried to address these issues by passing responsible budgets for 
the past three years. However, we don't control Washington. Our friends 
on the other side of the aisle have offered up budgets with higher 
taxes and more spending, that does not address significant entitlement 
reform, but also never balances.
    I stress, if we do not address our mandatory spending programs, 
funding for all other federal government programs will continue to feel 
the financial pinch. Imagine the high-paying jobs that will result when 
today's basic scientific discoveries turn into tomorrow's marketable 
technologies. Tomorrow's prosperity depends on what we do today. Back 
to our present situation, and the current year budget for the NSF. We 
must now focus on answering, ``what is the appropriate role of the 
Federal government in funding science research?'' I believe by asking 
this and related questions, we can create a stronger, more efficient 
NSF, nimble enough to tackle the numerous scientific challenges of 
tomorrow.
    As a nation, we must focus on our scientific priorities and stretch 
every dollar for maximum benefit. As an example, do we really need a 
study entitled ``The International Criminal Court and the Pursuit of 
Justice'' that was funded for $260,000 by the NSF? I think it's a nice 
luxury to have people study this topic. But it's not something that we 
need NSF to fund. This type of research is more appropriately funded by 
private entities or other government agencies.
    Our charge is to ensure the American taxpayer is getting value for 
their hard earned dollars that we spend on research through the NSF. I 
strongly support NSF funding in mathematics, physics, chemistry, 
biology, engineering, cyber security, and STEM education. Although the 
scientific community is not facing an ideal fiscal environment, I still 
believe that America's best and brightest scientists will continue to 
persevere and produce the innovations and discoveries of tomorrow.
    We should support the hard-working scientist who stays up all night 
to repeat her experiments and doggedly pursues her ideas, because she 
believes she is onto a great discovery and will answer the big 
questions in her field. After visiting several universities and 
colleges in Indiana earlier this month, my faith and optimism in the 
scientific community is stronger than ever. But for American science to 
succeed, we must make sure that the NSF remains focused on its 
scientific goals and missions.
    I look forward to the thoughtful discussion that will ensue. I 
would also like to thank Ranking Member Lipinski and everyone 
participating in today's hearing.

    Chairman Bucshon. With that I now recognize the Ranking 
Member, the gentleman from Illinois, Mr. Lipinski, for an 
opening statement.
    Mr. Lipinski. Thank you, Chairman Bucshon, for holding this 
hearing, and I want to welcome Dr. Marrett and Dr. Arvizu.
    Let me begin by saying that I understand that America faces 
a serious debt threat. If we don't do anything to reign in our 
long-term debt our economic future will be imperiled. Solving 
this problem requires some budget cuts, but I hope that going 
forward we can make these cuts in a smart way that addresses 
the various near-term and long-term challenges that our Nation 
faces.
    In doing this we will have to set priorities. Sometimes 
when you set priorities, this will mean cutting spending, and 
sometimes it may mean increasing investments in areas that 
deliver real returns for taxpayers by improving our quality of 
life, protecting our population from natural and manmade 
threats, and ensuring our economic competitiveness.
    Therefore, I am pleased that the Administration's Fiscal 
Year 2014 budget request continues to emphasize science, 
innovation, and STEM education generally and the National 
Science Foundation in particular.
    Even though NSF has fared well in recent appropriations 
bills, continued uncertainty over funding levels has hurt 
scientific progress. The agencies and universities can't plan. 
Some of the best and brightest give up and leave their labs, 
and the younger generation sees what their mentors are up 
against and choose a different path altogether.
    Our own Committee will have the opportunity to weigh in on 
budget and programmatic priorities across the agency as we 
consider an NSF Reauthorization Bill sometime in the next 
several weeks. So I appreciate this opportunity to learn more 
about the nature and scope of research and STEM education 
activities proposed in the budget.
    Let me just comment on a few of the priorities described in 
the budget. First, you will not be surprised that I am excited 
to see the proposed increase in the I-Corps Program. As I have 
said many times now, I strongly believe that this program 
embodies the NSF's original mission of both promoting the 
progress of science and advancing the national prosperity. 
Although it is only a fraction of a percent of NSF's budget, 
early results support my long-held belief that I-Corps will 
yield exponential benefits, helping turn NSF's research 
investments into new companies and jobs for the benefit of all 
Americans.
    Last summer I hosted a field hearing in Chicago to learn 
more about this program and its early successes. For my new 
colleagues who haven't looked at this program in depth, it is 
important to note that this program educates scientists on how 
to develop viable commercial products from their research. It 
connects them with like-mind venture capitalists and 
entrepreneurs.
    The final decisions on whether or not to commercialize 
research still rests with the scientists in question, and of 
course, with the private sector which would fund the ideas. 
Already we are seeing results with I-Corps graduates such as 
Neon receiving venture capital funding for a product developed 
through the program. This public-private partnership is in the 
best tradition of U.S. science policy, and I look forward to 
working with the NSF as this program develops.
    Second, I am pleased with the continued emphasis on 
Advanced Manufacturing at NSF and several other agencies. We 
must regrow our American manufacturing base and we will not do 
it with the technologies and processes of yesterday. But the 
small and medium-sized industries that comprise a significant 
portion of our manufacturing capacity can't do it all on their 
own, and they certainly don't have the resources or capacity to 
invest in most far-reaching R&D. NSF plays a critical role in 
funding basic research with potential application to advanced 
manufacturing technologies and processes of the future.
    There are many other interesting proposals in this budget 
request, including the increased focus on big data, the 
expansion of the INSPIRE Program to support interdisciplinary 
research and NSF's plan to begin to implement the OSTP Policy 
Memorandum on public access to the results of federally-funded 
research. It is also good to see that all the current MREFC 
projects are on track, and NSF is moving ahead with the Large 
Synoptic Survey Telescope.
    I will wrap up with a few comments and questions about the 
agency's proposals for consolidating many of its STEM education 
programs, both within the agency and as part of the 
Administration's federal-wide STEM reorganization. Mostly I 
would like to hear more details about all of these proposals 
because some of them seem to still be rough sketches.
    For example, with respect to the consolidated National 
Graduate Research Fellowship Program, I have no doubt that 
NSF's own graduate research fellowships will continue without 
disruption, but I wonder how NSF will work with the mission 
agencies to ensure that their mission-specific needs are being 
met through this new consolidated national program administered 
by NSF.
    I would also like to understand better what is being 
proposed for graduate traineeships and what is new about the 
consolidated undergraduate program or if it is mostly a 
repackaging of existing programs. I suspect many of my 
colleagues will have STEM questions for you today also.
    With that I want to thank, again, Dr. Marrett and Dr. 
Arvizu, for being here today. I look forward to your testimony 
and our discussion.
    With that I will yield back.
    [The prepared statement of Mr. Lipinski follows:]

     Prepared Statement of Ranking Minority Member Daniel Lipinski

    Thank you Chairman Bucshon for holding this hearing and welcome Dr. 
Marrett and Dr. Arvizu.
    Let me begin by saying that I understand that America faces a 
serious debt threat. If we do not do anything to rein-in our long-term 
debt, our economic future will be imperiled. Solving this problem will 
require some budget cuts. But I hope that going forward we can make 
these cuts in a smart way that addresses the various near-term and 
long-term challenges that our nation faces.
    In doing this, we will have to set priorities. Sometimes priority-
setting means increasing investments in areas that deliver real returns 
for taxpayers by improving our quality of life, protecting our 
population from natural and man-made threats, and ensuring our economic 
competitiveness. Therefore, I am pleased that the Administration's FY14 
budget request continues to emphasize science, innovation, and STEM 
education generally, and the National Science Foundation in particular.
    Even though NSF has fared well in recent appropriations bills, 
continued uncertainty over funding levels has hurt scientific progress. 
The agency and universities can't plan, some of the best and brightest 
give up and leave their labs, and the younger generation sees what 
their mentors are up against and choose a different path altogether.
    Our own Committee will have the opportunity to weigh in on budget 
and programmatic priorities across the agency as we consider an NSF 
reauthorization bill sometime in the next several weeks. So I 
appreciate this opportunity to learn more about the nature and scope of 
research and STEM education activities proposed in the budget.
    Let me just comment on a few of the priorities described in the 
budget. First, you will not be surprised that I am excited to see the 
proposed increase for the I-Corps program. As I've said many times now, 
I strongly believe that this program embodies the NSF's original 
mission of both promoting the progress of science and advancing the 
national prosperity. Although it's only a fraction of a percent of 
NSF's budget, early results support my long-held belief that I-Corps 
will yield exponential benefits, helping turn NSF's research 
investments into new companies and jobs for the benefit of all 
Americans.
    Last summer I hosted a field hearing in Chicago to learn more about 
this program and its early successes. For my new colleagues who haven't 
looked at this program in depth, it is important to note that this 
program educates scientists on how to develop viable commercial 
products from their research and connects them with like-minded venture 
capitalists and entrepreneurs. The final decisions on whether or not to 
commercialize research still rest with the scientists in question and, 
of course, with the private sector which would fund the ideas. Already 
we are seeing results with I-Corps graduates such as Neon receiving 
venture capital funding for a product developed through the program. 
This public-private partnership is in the best tradition of US science 
policy and I look forward to working with the NSF as this program 
develops.
    Second, I am pleased with the continued emphasis on advanced 
manufacturing at NSF and several other agencies. We must regrow our 
American manufacturing base, and we will not do it with the 
technologies and processes of yesterday. But the small and medium-sized 
industries that comprise a significant portion of our manufacturing 
capacity can't do it all on their own, and they certainly don't have 
the resources or capacity to invest in the most far-reaching R&D. NSF 
plays a critical role in funding basic research with potential 
application to the advanced manufacturing technologies and processes of 
the future.
    There are many other interesting proposals in this budget request, 
including the increased focus on big data, the expansion of the INSPIRE 
program to support interdisciplinary research, and NSF's plans to begin 
to implement the OSTP policy memorandum on public access to the results 
of federally funded research. It's also good to see that all of the 
current MREFC projects are on track and NSF is moving ahead with the 
Large Synoptic Survey Telescope.
    I will wrap up with a few comments and questions about the Agency's 
proposals for consolidating many of its STEM education programs, both 
within the Agency and as part of the Administration's federal-wide STEM 
reorganization. Mostly, I'd like to hear more details about all of 
these proposals, because some of them seem to be still just rough 
sketches. For example, with respect to the consolidated National 
Graduate Research Fellowship Program, I have no doubt that NSF's own 
graduate research fellowships will continue without disruption, but I 
wonder how NSF will work with the mission agencies to ensure that their 
mission-specific needs are being met through this new consolidated 
national program administered by NSF. I'd also like to understand 
better what's being proposed for graduate traineeships, and what's new 
about the consolidated undergraduate program, or if it's mostly a 
repackaging of existing programs. I suspect many of my colleagues will 
have STEM questions for you today.
    I thank Dr. Marrett and Dr. Arvizu for being here today; I look 
forward to your testimony and our discussion.

    Chairman Bucshon. Thank you, Mr. Lipinski.
    I now recognize the Chairman of the full Committee, 
Chairman Smith, for an opening statement.
    Chairman Smith. Thank you, Mr. Chairman, and I want to 
follow up on your good opening statement in regard to the 
National Science Foundation funding.
    We are now in a situation where we must maximize every 
dollar being spent by every Federal agency. Our focus should be 
on how the Federal Government, including the National Science 
Foundation, can maximize returns from taxpayer-funded research. 
How can the NSF better prioritize which areas of science and 
engineering it supports?
    The NSF has great potential to help American science 
flourish and thus contribute to our economy and the wellbeing 
of our country. But in my view the NSF has funded several 
studies that should not have been approved. However, I do not 
think that we should pick winners and losers by micromanaging 
grant decisions at the NSF. It is the responsibility of the 
professionals at the NSF to exercise their best judgment and 
ensure that only proposals that benefit the taxpayer get 
funded. It is Congress' job to ensure accountability and 
transparency for the American taxpayer. How do we avoid 
micromanaging but achieve accountability at the National 
Science Foundation? And how do we ensure an environment where 
the creativity and the determination of our very best 
scientists is encouraged?
    Mr. Chairman, let me stop there but say that I hope that 
our witnesses will be able to address some of these questions. 
They are not easy, and it requires, I think, a common 
understanding and appreciation for what the National Science 
Foundation does but also a recognition that we may be able to 
improve the process whereby the NSF grants are approved.
    I yield back. Thank you.
    [The prepared statement of Mr. Smith follows:]

               Prepared Statement of Chairman Lamar Smith

    Thank you , Mr. Chairman. And I want to follow up on your good 
opening statement in regard to the National Science Foundation (NSF) 
funding.
    We are now in a situation where we must maximize every dollar being 
spent by every federal agency.
    Our focus should be on how the federal government, including the 
National Science Foundation, can maximize the returns from taxpayer-
funded research.
    How can the NSF better prioritize which areas of science and 
engineering it supports?
    The NSF has great potential to help American science flourish and 
thus contribute to our economy and the well-being of our country.
    But in my view, the NSF has funded several studies that should not 
have been approved. However, I do not think that we should pick winners 
and losers by micromanaging grant decisions at the NSF.
    It is the responsibility of the professionals at the NSF to 
exercise their best judgment and ensure that only proposals that 
benefit the taxpayer get funded.
    It is Congress' job to ensure accountability and transparency for 
the American taxpayer. How do we avoid micromanaging but achieve 
accountability at the National Science Foundation?
    And how do we ensure an environment where the creativity and the 
determination of our very best scientists is encouraged?
    Mr. Chairman let me stop there but say that I hope that our 
witnesses will be able to address some of these questions.
    They are not easy and it requires, I think, a common understanding 
and appreciation for what the National Science Foundation does. But 
also recognition that we may be able to improve the process whereby the 
NSF grants are approved. And I yield back.

    Chairman Bucshon. Thank you, Mr. Chairman. At this time I 
would like to introduce our witnesses. Our first witness is Dr. 
Cora Marrett, the Acting Director of the National Science 
Foundation. She has served in this role since March 2013, and 
was previously confirmed as NSF's Deputy Director in May 2011. 
Prior to that Dr. Marrett served as the NSF as the Assistant 
Director for Education and Human Resources and the Assistant 
Director for the Social Behavioral and Economic Sciences. She 
has also held positions at the University of Wisconsin and the 
University of Massachusetts at Amherst. Dr. Marrett has a 
Bachelor of Arts from Virginia Union University and a Master of 
Arts and a Doctorate from Wake Forest University. Welcome.
    Our next witness is Dr. Dan Arvizu, Chairman of the 
National Science Foundation Board. In 2004, Dr. Arvizu was 
appointed by President George W. Bush for a six-year term on 
the National Science Board and in 2010, was reappointed by 
President Barack Obama to a second six-year term. In 2012, Dr. 
Arvizu was elected as Chairman of the NSB. Dr. Arvizu is the 
Director and Chief Executive of the Department of Energy's 
National Renewable Energy Laboratory. Dr. Arvizu has a Bachelor 
of Science degree in mechanical engineering from New Mexico 
State University and a Master of Science degree and Ph.D. in 
mechanical engineering from Stanford University.
    As our witnesses should know, spoken testimony is limited 
to five minutes each, after which the Members of the Committee 
will have five minutes each to ask questions.
    I now recognize Dr. Marrett for five minutes to present her 
testimony.

            TESTIMONY OF THE HONORABLE CORA MARRETT,

          ACTING DIRECTOR, NATIONAL SCIENCE FOUNDATION

    Dr. Marrett. Thank you, Chairman Bucshon, Ranking Member 
Lipinski, and Members of the Subcommittee. It is indeed my 
privilege to be able to be here with you today to present the 
National Science Foundation's budget for the 2014 fiscal year.
    NSF is the only Federal agency dedicated to support basic 
research and education in all fields of science and 
engineering. That wide-angle vision has permitted unprecedented 
developments over the past 60 years and seems especially 
imperative for the complex problems and the question that the 
Nation currently faces.
    Our mission and our reach can be expressed quite simply. We 
empower the discoveries that keep our Nation at the forefront, 
the forefront of the world's innovation enterprise. So for more 
than six decades we have supported fundamental research and 
education that has pushed forward the frontiers of scientific 
knowledge.
    We allocate 94 percent of our budget directly in support of 
research, education, and scientific infrastructure. That means 
we work with a very lean six percent administrative overhead. 
We invest directly into the Nation's research and development 
enterprise by making approximately 10,000 merit-reviewed awards 
to researchers and educators in all disciplines.
    It is only with a strong commitment and partnership with 
Congress, and this Subcommittee specifically, that we have 
created and refined the world's gold standard for science 
funding. That standard having to be merit review. We greatly 
appreciate the longstanding support of the full Committee, the 
Subcommittee for the strong model that we have in place.
    The request before you is for $7.6 billion. This is an 
increase of $500 million over Fiscal Year 2012. We know this is 
an era of fiscal restraint that requires difficult trade-offs. 
The overall support for NSF reflects the Administration's clear 
determination to build on the Nation's history of success and 
leading-edge discovery and innovation.
    Most of our funding goes into core fundamental research, 
but we also make major targeted investments that enable 
cutting-edge research. As we look at the infrastructure that is 
necessary, these encompass telescopes, ships, other facilities 
and capabilities. Some of our best examples draw on NSF's 
legacy of funding visionary computer science, and this is a 
part of a comprehensive portfolio of advanced computational 
infrastructure, infrastructure programs, and other resources.
    In the last year we launched three new advanced facilities. 
Yellowstone at the National Center for Atmospheric Research in 
Wyoming, Stampede at the Texas Advanced Computing Center, thank 
you very much, Mr. Smith, for being there, Blue Waters at the 
University of Illinois with Mr. Lipinski. The recently-launched 
Alaska Region Research Vessel, Sikuliaq, will soon embark on 
its first science mission. It will explore the Arctic to 
advance our understanding of the climate and oceanography.
    Our priority investment in secure and trustworthy 
cyberspace offers a different kind of example of NSF's 
contribution to the Nation. This program will help protect the 
Nation's critical information technology infrastructure, 
including the Internet, from a wide range of threats. We are 
educating the next generation cybersecurity workforce, helping 
to transition what has been learned in the laboratory into day-
to-day practice.
    The budget request also continues NSF's long history of 
support for the next generation of leaders in other fields of 
science, technology, engineering, and mathematics or STEM 
education. This is a part of the Administration's multiagency 
effort to increase the impact of Federal investments in STEM 
achievement.
    NSF will support the efforts of almost 340,000 researchers, 
post-doctoral fellows, teachers, and students. More than ever 
the future prosperity and well-being of Americans depend on 
sustained investments in science and engineering. NSF promises 
to continue to be central to that effort.
    Mr. Chairman and Members of the Subcommittee, I hope this 
summary has given you an idea of how important the National 
Science Foundation is to our Nation's progress, and I look 
forward to the dialogue that will follow.
    Thank you.
    [The prepared statement of Dr. Marrett follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Bucshon. Thank you for your testimony.
    I now recognize Dr. Arvizu for five minutes to present his 
testimony.

              THE HONORABLE DAN ARVIZU, CHAIRMAN,

                     NATIONAL SCIENCE BOARD

    Dr. Arvizu. Thank you, Chairman Bucshon, Ranking Member 
Lipinski, and Members of the Subcommittee. I appreciate this 
opportunity to speak with you today in support of the National 
Science Foundation's Fiscal Year 2014 budget. I am Dan Arvizu, 
Chairman of the National Science Board and Director and Chief 
Executive of the Department of Energy's National Renewable 
Energy Laboratory, and with your concurrence I submit my 
written record, testimony to the record, please.
    Before I go on with my testimony I would like to comment on 
the recent leadership transition here at the NSF. Dr. Subra 
Suresh, who many of you know, an extraordinary leader, will be 
missed, but I wanted to also acknowledge that Dr. Cora Marrett 
has more than capably managed a very smooth transition and 
continues the strong working relationship both with the Board 
and the NSF Senior Management. And I have worked closely with 
Cora now for more than nine years, and I believe her experience 
and dedication to the Foundation will serve the Nation well.
    Mr. Chairman, on behalf of the 25-member National Science 
Board and the engineering and science and education communities 
that we represent, I would like to thank the Members of this 
Subcommittee for their longstanding support of the National 
Science Foundation. My colleagues on the Board and I do not 
take this continued support for granted, and our top priority 
is to provide the strong governance, proper stewardship of this 
most-important taxpayer investment.
    For over 60 years NSF has seeded our Nation's innovation 
ecosystem by funding the transformative research that underpins 
long-term scientific and technological progress. With the 
support of Congress NSF has always focused on funding the best 
science through a rigorous merit-review system and by 
encouraging scientists and engineers to submit their most 
innovative proposals.
    Although businesses fund over 60 percent of total R&D in 
the U.S., only five percent of that goes to basic research. 
Here the Federal Government plays a critical, complementary 
role accounting for more than half of all the basic research in 
this country. This is especially true for knowledge in 
technology-intensive or KTI industries that produce 1/4 of the 
U.S. GDP and employ about 20 million U.S. workers with very 
high-paying jobs.
    The NSF 2014 budget request reflects a strategic commitment 
to supporting the best basic research, economic growth, job 
creation through innovation, and globally-competitive science 
and engineering workforce. The Board believes that the 
priorities in this proposal reflect a clear commitment to 
investments that strengthen our Nation for the long term.
    I would particularly ask for your support for full funding 
for the NSF's Agency Operation and Award Management Account. I 
note that although the number of proposals received at NSF has 
increased over 60 percent in the past decade, the Foundation 
still replies to roughly 78 percent of those within the first 6 
months of having received them, which exceeds the goals that we 
have set for ourselves. The proposed increase would help NSF 
process an increasing number of proposals in a way that 
protects taxpayer dollars while keeping our overhead rate at 
the very lean six percent that Dr. Marrett mentioned.
    I will refer you to more details in my written testimony 
for more of the other things that I would like to say, but I 
would like to take this opportunity to briefly comment on the 
Fiscal Year 2013 Continuing Resolution. In that bill the bill 
restricts the NSF on what it could fund in political science. 
Well, NSF and the National Science Board will fully will comply 
with the law, and I would like you to understand that that is 
important to all of us. I would like to also raise concerns 
about how these strictures could undermine the Merit Review 
Process and the progress of science.
    Although we recognize that it is Congress' responsibility 
to set funding priorities and we are clearly very attentive to 
that, the Board is unanimous and believes very strongly that 
legislatively-imposing restrictions on a class of research can 
run significant risks in not serving the national interest. The 
Foundation's Merit Review Policies which are emulated 
internationally hinge on being open to receive the best 
scientific ideas, having those ideas judged by independent 
experts, and accessed the soundness and the promise of what is 
proposed and make decisions based on potential scientific and 
societal value. To cut a whole class of science from 
consideration could have significant, unanticipated 
consequences.
    For example, when NSF funded Elinor Ostrom's work, which I 
know many of you are aware of, on common property, it was not 
expected that her findings would challenge conventional wisdom, 
and her research concluded that common resources is sometimes 
best managed by not regulating them. I think maybe that is 
something that we all appreciate. Nor was it anticipated that 
this political scientist would eventually win the Nobel Prize 
in economics.
    In closing, Mr. Chairman, I would like to, again, thank the 
Subcommittee for their leadership on science and engineering 
issues. We recognize the fiscal responsibilities confronting 
the Committee and Congress, and we pledge to work closely with 
the Director to set priorities. But even in the time of severe 
constraints, the Board believes that investments in science and 
technology capabilities, including our S&E workforce, are 
essential to our Nation's long-term prosperity and security.
    So thank you for the opportunity to testify, and I look 
forward to your questions. That concludes my report.
    [The prepared statement of Dr. Arvizu follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Bucshon. Thank you for your testimony. I thank the 
witnesses, both the witnesses for their testimony.
    Reminding Members that Committee rules limit questioning to 
5 minutes.
    The Chair at this point will open the round of questions. I 
recognize myself for five minutes.
    Dr. Marrett, I fully support the hypothesis-based data-
driven research to better understanding traumatic brain injury, 
Alzheimer's, epilepsy, autism, and a whole host of other brain-
related ailments. It is very important research as a medical 
professional.
    However, I am concerned about the lack of focus and clarity 
in the present BRAIN Initiative, especially as it concerns the 
NSF. How will we ensure there will be a sufficient focus going 
forward and that we are not just fishing around for ideas?
    Dr. Marrett. Thank you for the question, and in fact, we 
are more than willing to get back with more details because 
this happens to fit quite well into what was already on the NSF 
agenda. We have been investing in neuro and cognitive science 
for some time, gave a presentation to the Science Board to 
indicate the directions that we have in mind, and thus, what we 
intend to do in connection with the BRAIN Initiative will 
follow through on what the program of research already has been 
at NSF.
    So for us it is a wonderful way for being able to 
articulate, and as you know quite well, the idea of being able 
to address questions about Alzheimer's, autism, those are far 
into the future. We do not have the models, the tools right now 
to get to that level. The amount of fundamental work that is 
required is something that we are investing in. It is not a 
matter then for us of a fishing expedition. But as I said, we 
are more than willing to provide you details on what the NSF 
portfolio will be with reference to the BRAIN Initiative.
    Chairman Bucshon. Thank you, and one of the researchers at 
Purdue University I just met with is doing research on football 
helmets, which has been on the front page recently as it 
relates to chronic traumatic brain injury funded by the NSF.
    The next question. In your budget you have 372 million 
being spent on clean energy research. This includes research 
related to smart grid, energy use, energy efficiency. How are 
you working with the DOE Office of Science to ensure that we 
don't duplicate research with our funding efforts? And are you 
encouraging collaboration between the appropriate offices at 
NSF and DOE to make sure that this doesn't happen?
    Dr. Marrett. We work very closely with DOE--with several 
offices from the Office of Science at DOE--and support of CERN 
in Switzerland with the Office of High Energy Physics. The 
connections are very deep that we have. We pay a lot of 
attention to the matters of ensuring that there isn't 
duplication. And in part, why that is not all that difficult 
is, let me again note, our investments at the very fundamental 
and basic levels will mean that we need the connections with 
other agencies, other places if many of the ideas and the 
results are going to move into the larger sector. So DOE is a 
strong partner in so many of the things that we do including 
the area of clean energy.
    Chairman Bucshon. Thank you. Dr. Arvizu, can you talk to us 
a little bit about the role that private industry plays in 
terms of creating and retaining science and engineering jobs 
versus the types of positions funded with Federal dollars? How 
do we ensure the science and engineering workforce continues to 
grow, perhaps better focusing this responsibility on the 
private sector?
    Dr. Arvizu. Yes. Thank you, Mr. Chairman, for that 
question. I think it is very clear that one of the long-term 
benefits that you get from funding basic research is the 
societal benefit that ultimately finds its way into service for 
the public good.
    There is a whole ecosystem of what it takes to get from 
basic research all the way out to commercial products and 
hopefully things that are making a difference in the way we 
produce things and consume things.
    There is a, in many respects, a series of barriers that 
sometimes mitigate the quick adoption of technology. So in the 
case of the work that NSF does with I-Corps, for instance, 
there we are trying to help researchers find those pathways 
which are typically more driven by the private sector. Through 
public private partnerships, many kinds of state incubators, 
university research programs, where there actually are 
mechanisms already in place that the private sector would fund 
access to venture capital, those kinds of things, that help 
that technology move more quickly.
    And the work, I think, within the government's role and 
specifically for the National Science Foundation, is to help 
facilitate that. I think we don't want to lose track of the 
idea that the mission objective of NSF is really to do 
fundamental work, to do basic discovery science.
    Chairman Bucshon. Thank you. I now recognize Mr. Lipinski 
for five minutes for questions.
    Mr. Lipinski. Thank you, Mr. Chairman. I am going to 
surprise everyone, first of all, by not asking a question on I-
Corps right now. If you were here this morning, you know I 
talked about that, I talked about it in my opening statement, 
but let's go to talking about funding for social, behavioral 
and economic sciences, and of course, I have to disclose I do 
have a Ph.D. in political science and at one time had an NSF 
grant, a very, very small one, when I was in grad school.
    But as Dr. Arvizu had mentioned about the amendment in the 
House, well, the amendment, let's say we did have an amendment 
in the House defunding for political science research, which it 
didn't wind up going through but then the Senate version that 
limited the grants to those promoting national security, 
economic interests. We had the majority leader of the House 
talk about, you know, questioning the funding of social 
sciences, and Dr. Arvizu, you pointed out Elinor Ostrom, 
political scientist, who got NSF funding, received NSF funding, 
won the Nobel Prize. I could point out NSF-funded research by 
Al Roth and others who did research in the kidney exchange 
matching program that led to over 125 kidney transplants since 
2007, research that, you know, directly saved lives, and he 
received the 2012 Nobel Prize in economics for his work.
    So there is a lot of social science work that we could talk 
about that does have an impact, a direct impact on people's 
lives. So I want to give Dr. Marrett the opportunity to talk 
about the value of social science research, why the NSF funds 
it, and the other thing, first I want you to start off by 
telling us what percentage of NSF funding goes into the SBE 
Directorate.
    So, Dr. Marrett.
    Dr. Marrett. All right. I will get you the exact 
percentage, but of the $7 billion budget for NSF, for the 
social, behavioral, economic, and sciences it is just over $272 
million. So this is not the large fraction of the support in 
these fields.
    Now, when I think about the social, behavioral, economic, 
and sciences, let me start with our notion of what is important 
when we think of science. Science, we especially emphasize, has 
to do with using an approach that is systematic, orderly, it is 
theoretically driven, and it is the findings--there is 
replicability. So it is more in the approach that one takes 
than the phenomena that would be considered. That means that 
you can apply this approach to any number of areas, fields, 
questions, and that is the way in which we say then the social, 
behavioral, and economic sciences follow the same model that 
one sees for the physical sciences, for the life sciences, for 
engineering at the National Science Foundation.
    Now, what about the investments? It is possible to talk 
about the particular kinds of projects as we often do, but it 
is also very important of the link to this other concern we 
have, and that is attracting people's interest, attracting 
young people often--even though for the National Science 
Foundation and for decision makers, we often think about 
science and engineering being important for the innovation in 
the Nation. But I have said on more than one occasion, I can't 
think of very many 10-year-olds who will say I want to be a 
scientist or engineer so I can innovate for the Nation. No. It 
is more about the attractiveness of the kinds of things they 
have a chance to explore, and that exploration that can take 
place, we call it the chance for the authentic experiences, the 
authentic experiences can occur through any number of realms, 
and that is where we have discovered that the social behavioral 
sciences, along with, again, the life sciences, physical 
sciences, become important means through which any number of 
young people, older people as well, get to understand something 
about the way in which processes occur and can question, can 
understand the dynamics that can be at play.
    So that is probably a longer way around to what was a very 
interesting question about what we have in mind, and that is 
why we remain so committed to the notion of we want to see that 
the best work is done in all fields because of the consequences 
that can be there, yes, for the problems the Nation faces, but 
also for the curiosity that we often have as human beings about 
the worlds we inhabit, the worlds that we create.
    Mr. Lipinski. Well, very quickly, I am out of time, thank 
you, Dr. Marrett. I came from an engineering background, had a 
couple degrees in engineering before I went into political 
science, but I understand that there are issues. We were just 
talking about--had two bills on the Floor yesterday. One was 
the Cyber Security Enhancement Act that I did with Mr. McCaul, 
and one of the important things to look at is, yes, we think 
about this as a technological issue, but one of the biggest 
issues in this in cyber security is internet hygiene, computer 
hygiene. That is what people are doing, the mistakes people 
make. Humans are the weakest link in there, and that is getting 
into the social sciences and trying to figure out what--how we 
shore up security when it comes to human beings which could 
unravel the whole, whatever we do on the technological side.
    So with that, I will yield back.
    Chairman Bucshon. Thank you. I now recognize Mr. Stockman 
for five minutes.
    Mr. Stockman. I think you are going to find generally on 
both sides of the aisle we support you, and I think what we are 
trying to get at is when we go back to our home districts, I 
know you had a disagreement with some of the CR, but we have to 
go back, and we have to present what you put forth to our 
constituents. Sometimes when these 10,000 grants, some of these 
anomalies come up, it is a difficult challenge to present and 
defend, especially in these tight budgets.
    My father, I took care of him for eight years with 
Alzheimer's Disease, and he died. So when the President 
announced his initiative, I was actually fairly excited until I 
heard on April 5 on NPR, and let me quote you here, Susan 
Fitzpatrick, who runs the leading foundation that finances 
brain research, it is called the James McDowell Foundation. Are 
you both aware of that?
    And she says, ``[t]o be quite honest, I am befuddled, I was 
befuddled, I don't understand what the President is talking 
about.'' This is the lead person, and so I guess what I am 
asking you is if this goes out, there are 20 million people 
listening to it, and I go and have a town hall meeting, and I 
am sympathetic to your views, and I have to defend what you are 
doing, and yet we have someone that is the lead scientist 
saying you are doing the wrong thing, I am stuck in the middle. 
I am your messenger.
    I guess what I want to know is--go ahead. I can tell you 
are wanting to go.
    Dr. Marrett. No. It is exactly why we want the kind of 
dialogue, because you are right, and if we have not been clear 
enough, you keep pushing us for that clarity. I heard that same 
NPR account and thought immediately I was going to turn to my 
colleague, Dan Arvizu, because the President of the McDonnell 
Foundation was a former colleague of his on the National 
Science Board.
    So I think in that case that was our failure probably to 
have included the colleague as the developments were unfolding. 
And knowing him I am sure that he would not take the position 
that this is completely unreasonable, but it is a matter of 
trying to bring a number of people to the table.
    Dan?
    Dr. Arvizu. Yeah, and I would just add to that, you know, 
one thing that I think in terms of how you respond or otherwise 
communicate to constituents who are anxious to understand who 
does, you know, how are the decisions being made and what 
process are you using, one thing I will say is that the process 
of going through merit-based peer review and trying to 
understand what things to fund and what--how to set priorities 
is actually evolving as things, as we learn more, as we gain 
more understanding, as we gain more insights.
    Everything is changing in a fairly rapid rate. I think 
there is no substitute for having the best minds come together 
and debate, discuss, otherwise disagree but ultimately come up 
with a process that serves the Nation and the country to move 
the societal benefits.
    So we are trying to do that, and we are trying to improve. 
Certainly room for improvement in all the processes we have, 
but it is as Dr. Marrett has said, the gold standard so far.
    Mr. Stockman. But in that NPR story they said it was more 
of a PR stunt. Would you--have you reached out to these folks 
and talked to them about--I mean, that is a pretty big 
disagreement with the President.
    Dr. Marrett. Yes. As a matter of fact, we are going to send 
you far more details. One of my colleagues sitting here with 
me, John Wingfield, who is the Assistant Director for the 
Biological Sciences, has the lead for the Foundation in 
articulating, presenting what we have in our program and would 
welcome every opportunity imaginable to be able to communicate 
that, to convey, because as we said, we know we receive funding 
from the public. We have to be able to explain, to listen, to 
be able to share with that public. So we do want to get to you 
more of those details.
    Mr. Stockman. Yeah. I would actually, if you could write up 
how, you know, how it is decided, the kind of formulation, and 
how you guys go through the process. That would be helpful to 
us, but--and I don't know if there are some studies we can 
point out there which back in my district I would have a hard 
time explaining, so I would appreciate the formula and the 
mathematics or however it is structured so that I can explain 
it to my own constituents.
    And with that I yield back the balance of my time, Mr. 
Chairman.
    Chairman Bucshon. Thank you. I now recognize Dr. Bera.
    Mr. Bera. Thank you, Mr. Chairman. Thank you, Ranking 
Member. Thank you, Dr. Marrett and Dr. Arvizu.
    You know, as a biological sciences major, I spent a lot of 
time doing basic research, and as a physician I spent a lot of 
time in medical school doing research and as a faculty member 
and a former associate dean, have mentored many medical 
students that have gone through the research process.
    So I understand that, you know, part of research is you do 
experiments. You don't always know what the expected outcome is 
going to be, and it often is that the biggest breakthroughs are 
the unexpected discoveries. And those clearly have, you know, 
we can go back through our history and look at a lot of those 
unintended discoveries that have really propelled our economy 
forward and our science forward.
    I appreciate the fact that we have to be very conscious of 
how we are spending the taxpayer's resources. We have to be 
conscious of the debt and the deficit so we do have the 
resources to invest and make strategic investments, but it 
can't just be a discussion of cutting versus raising revenue. 
It also has to be a discussion of where can we get the best 
return on our investment, and throughout NSF, the Science 
Foundation's history, we see these discoveries, you know. I 
will quote a simple example.
    You know, in the 1990s the NSF led a multiagency project 
for digital library initiative. You know, there were two young 
Stanford University grad students that participated in this. 
One, Sergey Brin, was funded by an NSF fellowship. I don't 
have--history is going to tell you what that research led to. 
It is a company called Google that is now worth over $200 
billion and employs over 30,000 individuals. It is transformed 
how we live.
    You know, there are countless examples of those unexpected 
discoveries that have spurned innovation and moved us forward. 
You know, we can look at advanced manufacturing. You know, it 
was NSF-funded research that produced one of the first 3D 
printers. You know, I had, recently had the ability to go visit 
my alma mater at the University of California Irvine and visit 
the engineering department, and it is amazing what they can do 
now, and the applications of the 3D printing and the advanced 
manufacturing is really going to propel us forward, both in my 
profession as a physician but across the board.
    Dr. Marrett or Dr. Arvizu, can you give us a few other 
examples of areas that NSF has focused tackling some of these 
challenges for, you know, on the issue of agribusiness, on the 
issue of, you know, honeybees and so forth?
    Dr. Marrett. The list could be so long I hardly know where 
to start. We actually produce publications around exactly that. 
There is a whole process we have used called traces in which 
you could trace back. Here is a given development and what led 
to that. So you have seen that a lot in what we have shown in 
the whole area of cognitive tutors. That started with just some 
very fundamental work out of cognitive science that continued 
to be refined, that led finally to this whole notion that it is 
really--there is the accompanied, there are the things that are 
done financially out of that about how you improve the whole 
tutoring process.
    We have cited time and again another that started with just 
some very basic research out of the conceptual notion of game 
theory that led to the use of the auctions, auctioning the 
radio spectrum, a process that has brought now billions of 
dollars to the U.S. Government.
    We have then any number of ways in which it is quite 
possible to have some outcomes you just never anticipated, and 
as all of the examples show, it usually takes time. So these 
aren't things that happen all of a sudden, that it is a matter 
usually of continued investment in areas, but there is no 
shortage of the kinds of examples, and my colleague is ready to 
offer some others.
    Dr. Arvizu. I will just give you the short version here. 
Lots of technology that relates to the internet, web browsers, 
Doppler radar, magnetic residence imaging, DNA, fingerprinting, 
barcodes to name a few. There is a host of others.
    Mr. Bera. Well, thank you. We, you know, in order for us to 
maintain this competitive advantage over the rest of the world, 
we are the most innovative country in the history of our 
planet. We have to continue making these investments to make 
sure we continue to lead the world in innovation, and with that 
I yield back, Mr. Chairman.
    Chairman Bucshon. Thank you.
    I recognize now the Chairman of the full Committee.
    Chairman Smith. Thank you, Mr. Chairman.
    Chairman Bucshon. Chairman Smith.
    Chairman Smith. I don't know if it is been covered or not, 
but I would like to go back to a subject that I raised in my 
opening statement, and ask both witnesses if I could for 
suggestions. Help us come up with a way where we can try to 
discourage the approval of National Science Foundation grants 
that don't benefit the American people or our economy or our 
science discoveries or any of those things that we would all 
agree upon. And I actually mentioned it this morning at a full 
Committee meeting with Dr. Holdren, but you have these 
examples, and I think I have got 50 of them, but the two or 
three that I recall right now is the grant that was approved to 
study National Geographic photos of animals from 1988 to 2008. 
I love National Geographic. I love seeing the photos of 
animals, but should that study be conducted at taxpayer 
expense?
    The other one was, I think, the labor force in China in the 
16th, 17th, and 18th centuries. Is there something we can do to 
make sure and maybe it is the approval process, maybe it is 
expressing Congress' sentiments. What can we do to better the 
approval process so that the American people will agree that 
their taxpayer dollars are being spent in a worthwhile way?
    And that is part of it but--and it is not to deny that 
almost anything can be justified or have scientific value, but 
when only one out of every seven grants are being approved, 
there ought to be a higher standard than the standard that 
allows proposals like that to be approved. And that is not to 
say they shouldn't occur. Those studies might well should 
occur, but it should be on somebody else's dime, perhaps, 
rather than the taxpayers, and I welcome your comments, Dr. 
Marrett.
    Dr. Marrett. Yes. I think it is a fascinating question, and 
it is one that we certainly wrestle with. I would make a 
distinction, though, between the title of a project and what I 
think is your basic concern. You asked about the benefits, and 
as I was explaining earlier, the benefits are not always known 
when that project is, in fact, being developed. The title then 
can be very misleading.
    I like the example we often use of Google. The initial 
title for that activity was BackRub. If we had just been 
looking at titles I have a feeling that there would have been 
someone saying, what? The National Science Foundation is going 
to fund something called BackRub.
    Chairman Smith. And that is well and good, and I can 
appreciate that, but in these cases I have read the several-
hundred-word summary of these projects, and that is almost 
intellectual dishonesty if you are going to study something 
that you don't describe in two or 300 words. I assume that they 
meant what they said, but I also don't think you are saying 
that there aren't proposals that are approved that shouldn't be 
approved, and I realize they are a very small percentage.
    And but that is just it. You don't want them to color the 
overall process, and if there is a rational, reasonable way to 
try to eliminate some of these proposals from being approved, I 
assume that you would support that, and if so, then, what 
would--how could the process be improved?
    Dr. Marrett. That is what I said. We can come back to you--
--
    Chairman Smith. Okay.
    Dr. Marrett. --with suggestions and ideas because it is 
extremely complicated. In the list of projects that have 
sometimes been cited as having funny titles or a number of 
other things, you will see a number of them are dissertation 
topics. They were graduate students, and I can just envision 
that the reviewers were saying, let's not give up on them. 
Let's see what might be developed out of that. That is why I am 
saying it is a complicated process to determine, to ensure that 
we don't, in many ways, make it difficult for the best ideas to 
evolve.
    The other thing that we are more than willing to do is to 
have the conversations about how the process, as I have said 
earlier, how our whole process works, because it is a process 
in which we make special efforts to try to reach across the 
best of the experts to try to weigh in on what makes sense for 
all of what is being developed, but we welcome----
    Chairman Smith. Good. I am glad you admit we can improve 
the process, and we will follow up on that.
    Dr. Arvizu.
    Dr. Arvizu. Yeah, and I will just quickly, just piggyback a 
little bit on what Dr. Marrett has said. You know, right now we 
have two criteria; intellectual merit, broadening 
participation, and the Board conducted a review on those 
criteria just as recently as last year to think through what 
are all of the implications of that on the community broadly. 
How do we justify that the taxpayer, that the U.S. public is 
getting the best science, the best proposals, transformative 
research, to ensure that there are not built-in biases that we 
don't understand.
    And so we are very anxious to continue to improve that 
process, and to the degree there are things that can be done 
that will help remove perhaps those that fall into that 
category called questionable, certainly are very open and 
willing to----
    Chairman Smith. Mr. Chairman, if you will give me another 
couple of seconds here. I am a little bit over.
    Would you all agree to add to the guidelines something 
along the lines of that any proposal approved would have to 
directly benefit the American people?
    Dr. Arvizu. So that--that sounds like a great statement. I 
am----
    Chairman Smith. I am thinking about those I have seen that 
had to do with people in China. Not that there is anything 
wrong with that, but I would like----
    Dr. Arvizu. Yeah.
    Chairman Smith. --to direct that----
    Dr. Arvizu. That has more direct benefit. I think the issue 
and the question really is how do you start down a path of 
limiting or otherwise rephrasing that criteria so that it 
catches the things that you want and perhaps eliminates the 
things that you don't. In that case I think it begins to sound 
or to us feel like it is compromising the integrity of the 
basic process.
    Chairman Smith. To say that--let me get this right. To say 
that National Science Foundation proposals paid for by the 
American taxpayer, it compromises to say that it should benefit 
Americans?
    Dr. Arvizu. I wouldn't--certainly not put it that way. I 
would say that if we have criteria that unduly limits the 
opportunity for societal benefit to actually be gained by----
    Chairman Smith. But shouldn't they be able to state what 
those societal benefits are?
    Dr. Arvizu. We should be able to do that, and we believe 
that the criteria that we have today actually get at that in as 
robust a way as we know how. Certainly open to----
    Chairman Smith. And how do you explain all those proposals?
    Dr. Arvizu. We are certainly not perfect in a lot of 
respects, but I am not in a position where I can talk about the 
specifics.
    Dr. Marrett. I was going to ask would you mind----
    Chairman Smith. Who am I holding up here, Mr. Chairman? Who 
has questions left besides me?
    Chairman Bucshon. Ms. Lummis.
    Chairman Smith. Okay. I better----
    Ms. Lummis. And let me yield one of my minutes to you, Mr. 
Chairman.
    Chairman Smith. Okay. Thank you. Sorry. I hopefully won't 
use that.
    Dr. Marrett, did you want to reply?
    Dr. Marrett. I was simply going to ask would you mind if 
we--you were asking the Science Board to take a look at exactly 
that kind of a question. What would it mean to say that the 
research, that the specific benefits because we already--our 
funding is to the U.S. group of scientists and engineers.
    Chairman Smith. Yeah.
    Dr. Marrett. So we don't fund the international, and it is 
always the assumption that the benefits accrue to the U.S. 
population, but how one would try to formulate that more 
sharply I think my colleague from the Board is more than 
willing to say----
    Chairman Smith. So you are open to new----
    Dr. Marrett. --the Board can take that up.
    Chairman Smith. --guidelines. You are open to new 
guidelines?
    Dr. Arvizu. We are open certainly to continue to evaluate 
if those guidelines serve the national interest, and I would 
certainly be open to----
    Chairman Smith. The guidelines don't even say national 
interest, do they?
    Dr. Arvizu. Yes. I think the Organic Act that formulated 
the Foundation says in something about the national interest, I 
believe, and prosperity.
    Chairman Smith. Well, I haven't seen in all the write-ups I 
have read of these suspect proposals, I have never seen any 
reference to the national interest.
    Dr. Arvizu. Yeah. The guidelines that we use, I think that 
the Foundation uses, the two that I mentioned earlier, 
intellectual merit and broadening participation----
    Chairman Smith. It might be good if those who write the 
proposals mention that. I would recommend that anyway. Thank 
you, Mr. Chairman. Thank you for your time, Ms. Lummis, as 
well.
    Chairman Bucshon. I now yield to Ms. Lummis for her 
questions.
    Ms. Lummis. Thank you, Mr. Chairman.
    First, Dr. Marrett, just to give you a head's up, my first 
question is about Clean Energy Initiative, second is about 
supercomputing, and the third is for Dr. Arvizu about 
recommendations on regulations that increase administrative 
costs at research institutes, research universities. Okay. So, 
Dr. Marrett first.
    Does any of the $372 million requested for Clean Energy 
Initiatives go to the U.S. Global Change Research Program? Do 
you know? And if so, how much?
    Dr. Marrett. I can't give you the exact figures, but as you 
can tell from the budget the U.S. Global Change Research 
Program is what we call a crosscut in that it is organized 
through the National Science and Technology Council out of the 
Office of Science and Technology Policy. So, that means that 
things are reported in a particular way for that program.
    For the Clean Energy Initiative, that is a slightly 
different formulation that asks agencies what they are actually 
undertaking with reference to the clean energy. You wanted to 
know the amount that we funding in the Global Change Research 
Program. The request for '14 is $326 million, and that program 
is to be a comprehensive research program, but I think your 
other question is a link between that and the Clean Energy, and 
if my colleagues here don't have the answer for me right now, 
they will have it in a short time.
    Ms. Lummis. And I appreciate that. I know that is a very 
specific question, so if you could follow up with my office on 
the answer to that question, you know you are your convenience. 
At your earliest convenience. That would be great, Dr. Marrett.
    Now, turning to supercomputing, what portion of your budget 
deals with supercomputing or maybe I should put it this way. 
What is the budget for supercomputing?
    Dr. Marrett. Probably the easiest way to describe that is 
the budget for what is now the Division for Advanced Cyber 
Infrastructure. Now, that includes--but I would have to modify 
that a bit because that is not just about supercomputing, that 
especially moving in recent years to try to ensure that the 
information infrastructure is going to be what is available and 
useful for all scientists and engineers. Supercomputing had--
some of what was developing was for the very high-end user, and 
we had other than high-end users, but, again, the exact budget 
they will give me momentarily.
    Ms. Lummis. And I appreciate that because I know I am 
asking really specific questions.
    Dr. Arvizu, question for you. I note that there was about a 
year ago a report called Research Universities and the Future 
of America, and it had in it ten recommendations, one of which, 
recommendation seven, reads as follows: ``[r]educe or eliminate 
regulations that increase administrative costs, impede research 
productivity, and deflect creative energy without substantially 
improving the research environment.''
    Can you describe the taskforce work, the taskforce on 
administrative burdens, and what it is found with respect to 
unnecessary burdens on research universities?
    Dr. Arvizu. Thank you, Congresswoman Lummis, for that 
question. That is a topic of great interest to us at the Board, 
and so we have put together a task force that will focus 
specifically on trying to understand that which you refer to is 
our Administrative Burden Task Force. The findings to date are 
still very, very preliminary. In other words, we have just 
started the investigations, we have held already some 
workshops. We will hold more. There are a number of Board 
members who are very active in the community and are very 
anxious and interested to get at that, but we will give you a 
full report on the findings of that taskforce as soon as they 
come available. Right now it is still in the early stages.
    Ms. Lummis. Great, and Mr. Chairman, for all three of these 
questions, which I know were specific, I would be really 
grateful if you would sort of flag that Congressman Lummis is 
interested in this, and it would be just really terrific if you 
would follow up with me certainly when your findings become 
more solidified rather than preliminary and--because I have a 
tendency to jump the gun a little bit, and I want to make sure 
you have time to be really confident in your recommendations.
    And, you know, Dr. Marrett, same thing. If you need a 
little extra time to get back to my office with these or your 
staff could, that would be just super.
    Dr. Marrett. I will tell you right now for the Advanced 
Cyberinfrastructure Division that I was describing, the budget 
is $221 million, and I only wanted to give that to you now 
because I failed earlier to thank you for being present at the 
Wyoming supercomputer opening. Thank you.
    Ms. Lummis. Well, we are very excited about it as you can 
well imagine. I just can't even contemplate the number of 
computations that those computers are capable of making every 
nanosecond, and the fact that atmospheric research is so 
important, we are truly excited and committed as a university 
conglomerate, all of the universities involved in academic 
research just think that this is an absolutely terrific thing. 
And we really want to thank the NSF for recognizing the 
importance of supercomputing and scientific research, 
particularly atmospheric research.
    And when I was my state treasurer, I was on the very, very, 
frontend of helping fund that center and have toured the 
Boulder Mother Ship for NCAR, and it is really, really a 
wonder, an American accomplishment. So kudos to you all. Thank 
you.
    I yield back.
    Chairman Bucshon. Thank you. We are going to go into a 
second line of questioning, and you are in luck because there 
is only a few of us left.
    And I yield five minutes to myself.
    Dr. Marrett, we had a hearing, as you probably know, on 
open access issues to publically-funded scientific research 
data, and I see in your NSF budget you have 2.5 million 
dedicated towards ensuring public access. That is actually a 
small amount, but there are some significant policy 
implications with that, I think.
    What specifically do you hope to accomplish with this 
funding, and is $2.5 million enough to accomplish your goals, 
and then I will have a follow up.
    Dr. Marrett. Well, thank you. Obviously, $2.5 million is 
not enough to ensure public access to the publications that NSF 
supports and to the data. That is really there for the planning 
that we must undertake because that is--we have the question of 
what can we, in fact, achieve, and we are starting on the 
publication side. But another reason why there isn't a fully-
flushed out proposal yet or plan yet is that all agencies have 
been asked by the Office of Science and Technology Policy to 
develop a plan.
    So it would be premature to come in at this point with the 
full details when we are working on the plan for what we will 
have to submit. We will be developing more, and again, we will 
be open to giving you the information as it evolves.
    Chairman Bucshon. So the funding is specifically just in 
the--for the planning stages of----
    Dr. Marrett. That is right.
    Chairman Bucshon. --that. That is great, because I think, 
you know, as a result of our hearing we found out that--I think 
it is important if the taxpayers are funding research projects, 
I think for the taxpayers and the American people to have 
access to not only the results but now because everything is on 
computers, the actual data that generated the results so that 
we can have the ability to duplicate scientific studies and get 
similar results, which has been a controversial thing for a 
long time. And part of that has been, I think, is because 
people haven't had the access to the full data set that has 
been used by the researcher in the first place.
    And so the follow up was probably inaccurate, and we saw 
that--we see that a lot in my medical profession of cardiac 
surgery where there have been multiple studies on all kinds of 
things that seem to contradict each other, but when actually 
you get into the weeds, they really are very similar or there 
was a missing piece of information that the follow-up 
researcher did not have access to.
    So thank you for that answer, and I don't have any other 
questions.
    I will now yield to Mr. Lipinski.
    Mr. Lipinski. Thank you, Mr. Chairman. I want to go back to 
Chairman, what Chairman Smith was discussing. I just wanted 
to--maybe it is because I was the author of the NSF 
Reauthorization Bill last time, but I just wanted to bring up 
something that we put in there, it is Section 526 of the final 
bill, the America COMPETES Reauthorization, the Broader Impacts 
Review Criterion.
    And let me just read this here so everyone is aware of 
this, and we have this on the record. If you look there, under 
goals, ``The Foundation shall apply a broader impacts review 
criterion to achieve the following goals.''
    So these are for anyone who is submitting a proposal is 
supposed to discuss how it meets one or more of these 
criterion. ``One, increase economic competitiveness of the 
United States, two, development of globally-competitive STEM 
workforce, three, increase participation of women and under-
represented minorities in STEM, four, increased partnerships 
between academia and industry, five, improved pre-K through 12 
STEM education and teacher development, six, improved 
undergraduate STEM education, seven, increased public 
scientific literacy, and eight, increased national security.`` 
So we have bookend there, increased economic competitiveness 
and the increased national security there is number eight.
    But so right now those are to be considered when any 
proposal is being reviewed by the NSF. So I just wanted to--I 
don't think I really had a question. I wanted to make sure that 
I brought that out there that this is already--we codified it 
for the first time in the Reauthorization, which was in the 
COMPETES Reauthorization back in 2010.
    So I just wanted to have that out there for the record. I 
don't know. There is no need for a comment, but if Dr. Marrett 
or Dr. Arvizu had anything to add to that, you are welcome to 
add it. If not, I can just move on.
    Dr. Marrett. I suppose my only comment is since Dr. Arvizu 
had said the Board would be willing to think about the benefits 
to the Nation, what the criteria are already, perhaps they 
don't say a benefit to the U.S., but that is really what they 
are directed towards. So that is the way I interpret your 
comments.
    Mr. Lipinski. That is certainly what we intended and put 
those specific categories out there.
    Dr. Arvizu. Yeah, and I just want to clarify, and thank you 
for reading the sub-bullets on each of those two criteria. I 
think those both found at least in the reviews that we have had 
to date, been sufficiently robust that we couldn't figure out 
how to improve on them. Certainly willing to listen to 
suggestions about how to improve them, but the last review went 
through this process and looked at it and said that really 
achieves the results that we were trying to accomplish.
    Still, I am open to the idea that there would be 
opportunities to improve on that, but, again, it is a subject 
of debate and discussion. The Board is made up of 25 members. 
Each of them have a different perspective on how to approach 
scientific and intellectual merit, and I think to a large 
degree the value that the Board brings is the diversity of 
opinion, and when they come together and they codify this, and 
that kind of is the latest position that we take.
    Certainly continuous improvement requires that we go back 
and revisit those on occasion.
    Mr. Lipinski. And I certainly won't claim that I am perfect 
and we were perfect in putting this together in 2010, but 
certainly I think we certainly gave a lot of consideration to 
this, and if there are suggestions on how this can be improved, 
I think we should all be open to that.
    I think with that I will yield back.
    Chairman Bucshon. Thank you. I would like to say in closing 
that--thank you for your testimony. It is valuable testimony to 
the Committee. Also thank the other representatives from the 
National Science Foundation who are here today, and there is a 
whole row there and that as the Chairman of the Subcommittee I 
fully support, obviously, scientific research, and I think that 
we want to make sure that as the Federal Government we are not 
short-sighted in our role as it comes--as it relates to funding 
basic science research. We have had a couple of hearings where 
people from the private sector that spend quite a bit of money 
on research did tell us how important the NSF still is and will 
continue to be when it comes to funding basic science research 
for the future of our country, and thank you, again, for 
coming.
    I thank the Members of the Committee. The Members of the 
Committee may have additional questions for you, and they will 
ask you to respond to those in writing. The record will remain 
open for two weeks for additional comments and written 
questions from the Members.
    The witnesses are excused, and the hearing is adjourned. 
Thank you.
    [Whereupon, at 3:36 p.m., the Subcommittee was adjourned.]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
